BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that the original
copy of the foregoing Amicus Curiae Brief for the
Greek Orthodox Archdiocese of America as Amicus
Curiae in Support of the Episcopal Church's Petition
for Writ of Certiorari in No. 20-534, The Episcopal
Church, et al., v. The Episcopal Diocese of Fort Worth,
et al., was sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 18th day of November, 2020:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
Aaron Michael Streett
Baker Botts, L.L.P
910 Louisiana Street
Houston, TX 77002
(713) 229-1855
aaron. streett@bakerbotts.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I
I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

John Zavitsanos
Counsel of Record
Ahmad, Zavitsanos, Anaipakos, Alavi & Mensing P.C.
1221 McKinney Street, Suite 2500
Houston, Texas 77010
(713) 600-4901
jzavitsanos@azalaw.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 18, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/L(/VVJ h«__ IK' 1 aoJO

dot,

Notary Public

}J,

~

[seal]

JOHN D. GALLAGHER
Notary Pullltc, Slllt al CJiO
My commission Expires
;:e ,1ufl "f 14, 2023

